           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION



       TITLE II BENEFICIARIES
            IN ENGLAND

   December 2006   A-01-06-26131




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                          SOCIAL SECURITY
MEMORANDUM

Date:      December 11, 2006                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Title II Beneficiaries in England (A-01-06-26131)

           OBJECTIVE
           Our objective was to confirm the identity of United States (U.S.) Social Security
           beneficiaries residing in England.

           BACKGROUND
           The Social Security Administration (SSA) pays retirement, disability or survivor benefits
           to eligible individuals under Title II of the Social Security Act. Generally, beneficiaries
           can receive Title II benefits while residing outside the U.S. 1 As of May 1, 2006, there
           were 24,389 Title II beneficiaries residing in England—and 12,213 of them were
           70 years of age or older and receiving $100 or more in monthly benefits.

           SSA contacts each beneficiary in England by mail once every 2 years, or once a year if
           benefits are handled by a representative payee, to determine whether any events
                                               2
           affecting payment have occurred. Additionally, SSA routinely sends personnel to visit
           beneficiaries who are 100 years of age or older to ensure they are still alive and,
           therefore, eligible for benefits. A validation survey whereby SSA staff makes personal
           contact with a sample of beneficiaries to confirm identity and eligibility of beneficiaries in
           England was last conducted in 2003.

           When beneficiaries reside outside the U.S., there is an increased risk that SSA will not
           timely detect events that could affect beneficiaries’ eligibility or payment amounts. We
           selected a random sample of 200 Title II beneficiaries in England for personal contact
           to verify they were alive. In addition, we included all seven beneficiaries in England
           who were 100 years of age or older for review. (For more information about our scope
           and methodology, see Appendix B.)

           1
            However, various laws prohibit payments to beneficiaries residing in specific countries. See
           31 C.F.R. Part 211; SSA, Program Operations Manual System (POMS), RS 02650.001 and
           GN 02605.470. Additionally, SSA restricts payments to some countries. SSA, POMS, RS 02650.001.B.
           2
               See SSA, POMS, RS 02655.001 and RS 02655.005.
Page 2 - The Commissioner

RESULTS OF REVIEW
Generally, we confirmed the identities of the majority of the sampled Title II
beneficiaries residing in England. Of the 207 beneficiaries included in our review:
       199 (or about 96 percent) were alive and properly receiving benefits. However,
        as a result of our visit, we identified 1 beneficiary who was overpaid but the
        overpayment was previously undetected by SSA.
       6 beneficiaries’ deaths (or about 3 percent) were reported to SSA and the
        Agency stopped their benefits timely.
       1 beneficiary’s death was unreported and not detected until our review.
                                                                             3
       1 was still being developed as of November 28, 2006.

Unreported Death

During our visit to the address on SSA’s record for one beneficiary, we determined the
beneficiary no longer lived there. We sent a letter to the address on SSA’s record for
the beneficiary’s wife—which was a different address than the beneficiary’s. The
beneficiary’s daughter replied to our letter and informed us the beneficiary died in
January 2005 and his wife (who also received benefits) died in July 2006. These
beneficiaries were overpaid $5,689 in benefits between February 2005 and
September 2006. Additionally, if SSA had not terminated the benefits based upon our
review, the Agency would have paid these individuals $8,052 in benefits over the next
12 months. 4

Federal Benefits Unit Service to Beneficiaries

During our visits, we inquired about the service the beneficiaries received from the
Federal Benefits Unit (FBU) at the U.S. Embassy in London. Beneficiaries who sought
assistance from the FBU reported being satisfied with the service they received.

Office of the Inspector General Service to Beneficiaries

In several instances, we were asked for basic customer service assistance when we
visited beneficiaries. For example, one beneficiary in our sample whose husband had
recently died did not know how to handle Social Security affairs. She did not receive all

3
  We were unable to verify the identity of the beneficiary despite our efforts to contact her by mail and visit
her in person at the address on SSA’s records. We referred this case to SSA’s Federal Benefits Unit for
further development. Because the individual did not respond to SSA’s contact attempts, the Agency
withheld the November benefit payment. As of November 28, 2006, the Agency did not receive a
response from the beneficiary—an indication she may be deceased. This beneficiary was receiving
$798 per month in Social Security benefits.
4
 The wife of this beneficiary was not part of our sample. Both beneficiaries were paid by direct deposit.
As of November 28, 2006, SSA successfully recovered $2,070 of the $5,689 that was paid after death (or
about 36 percent), and continued to pursue recovery of the remaining overpayment.
Page 3 - The Commissioner

of the benefits due her because her bank account was closed. We conveyed this
information to the staff at the FBU, who worked directly with the beneficiary to resume
her benefit payments.

During another visit, a beneficiary informed us that—in addition to her own retirement
benefit payment—she had also received a separate spouse’s benefit under her ex-
husband's record for several years until it stopped unexpectedly. Since SSA generally
combines benefits into one monthly payment when a beneficiary is entitled to more than
one benefit at the same time, we provided this information to the staff at the FBU for
        5
review. After reviewing the beneficiary’s record, the FBU in London determined the
individual was not entitled to the spouse’s benefit she previously received and,
therefore, was overpaid $16,335. The beneficiary was notified of the overpayment in
October 2006 and collection efforts were initiated.

CONCLUSION
Within our sample, we confirmed the identity of most of the Title II beneficiaries residing
in England. We also found that, generally, the deaths of beneficiaries in England were
reported to SSA and the Agency terminated benefit payments timely. Additionally, we
found that Title II beneficiaries in England were satisfied with the service they received
through the FBU.

Based on our review, we identified $22,024 in overpayments that SSA did not detect
prior to our audit. This includes one beneficiary who was paid $16,335 that she was not
entitled to receive, and two other beneficiaries whose deaths had not been reported to
SSA and, as a result, $5,689 was paid after their deaths. By taking action to stop the
ongoing benefit payments to these two deceased beneficiaries, we estimate the Agency
saved about $8,052 that would otherwise have been issued over the next 12 months.

AGENCY COMMENTS
SSA was pleased with the results of our review (see Appendix C).




                                                       Patrick P. O’Carroll, Jr.




5
 SSA, POMS, GN 02401.025. Generally, benefits are combined into one monthly payment unless they
are derived from different trust funds. The OIG issued a report on this issue in August 2006—Benefits
Paid to Dually Entitled Title II Beneficiaries (A-01-06-26004).
                                   Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope, Methodology and Sample Results

APPENDIX C – Agency Comments

APPENDIX D – OIG Contacts and Staff Acknowledgments
                                          Appendix A

Acronyms
FBU    Federal Benefits Unit
POMS   Program Operations Manual System
SSA    Social Security Administration
U.S.   United States
                                                                         Appendix B

Scope, Methodology and Sample Results
To accomplish our objective, we:

      Reviewed the Social Security Administration’s (SSA) policies for Title II benefit
       payments to individuals residing outside the United States (U.S.).

      Obtained a file from SSA of all beneficiaries living in England and receiving
       Title II benefits as of May 2006.

      Identified 12,213 beneficiaries who were 70 years of age or older and receiving
       $100 or more in benefits.

      Randomly selected 200 beneficiaries from the population of 12,213—together
       with the 7 beneficiaries 100 years of age or older—for review to confirm whether
       the beneficiaries were alive.

The table below shows details of our population.

    Characteristics                                              Total    Percent

    Total Social Security Beneficiaries in England           24,389       100.0%

    Total Over Age 61 (i.e., Retirement)                     23,077        94.6%

    Total Under Age 62 (i.e., Disabled/Survivor)                 1,312      5.4%

    Total Aged 62 to 69                                          7,482     30.7%

    Total Aged 70 and Over                                   15,595        63.9%

For the 207 Title II beneficiaries we selected for review, we:

      Sent letters to the address of record for each of the beneficiaries notifying them
       of our intention to meet with them in person, explaining the purpose of our visit,
       and requesting address and telephone number corrections. We also provided
       the telephone number of the Federal Benefits Unit (FBU) in the U.S. Embassy in
       London and the name of the Regional Federal Benefits Officer.

      Received reports, either directly or through the FBU, of the deaths of 6 of the
       207 beneficiaries. The reports were timely and SSA terminated benefits timely.



                                            B-1
   Received reports, either directly or through the FBU, of telephone numbers and
    minor address corrections for beneficiaries. Some beneficiaries also notified us
    of dates when they would be available to meet with us.

   Met in person with, or the FBU was visited in person by, 183 of the
    207 beneficiaries.

   Confirmed via telephone, or the FBU confirmed via telephone, the identities of
    16 beneficiaries.

   Determined the death of one beneficiary (and the death of his spouse) had not
    been reported to SSA, and referred the case to SSA for benefit termination and
    potential overpayment recovery action.

   Referred one case to SSA for development, as we were unable to make contact
    with the beneficiary.

We performed our review between May and November 2006 in Boston,
Massachusetts and in England. We found the data used for this audit were
sufficiently reliable to meet our audit objectives. The principal entity audited was
SSA’s Office of International Operations under the Deputy Commissioner for
Operations. We conducted our audit in accordance with generally accepted
government auditing standards.




                                        B-2
                  Appendix C

Agency Comments
                                        SOCIAL SECURITY

MEMORANDUM

Date:      November 28, 2006                                                   Refer To:   S1J-3

To:        Patrick P. O'Carroll, Jr.
           Inspector General

From:      Larry W. Dye /s/
           Chief of Staff

Subject:   Office of the Inspector General (OIG) Draft Report, "Title II Beneficiaries in England" (A-01-
           06-26131)--INFORMATION


           We appreciate OIG’s efforts in conducting this review. We are pleased that the findings from
           the review indicate that the Social Security Administration is paying benefits and
           administering the Title II, Old Age Survivors and Disability Insurance program to
           beneficiaries residing in England in an accurate and efficient manner.

           If we can be of further assistance please feel free to contact Ms. Candace Skurnik, Director,
           Audit Management and Liaison Staff, at extension 54636.




                                                       C-1
                                                                      Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division, (617) 565-1765

   David Mazzola, Audit Manager, (617) 565-1807

   Jeffrey Brown, Audit Manager, (617) 565-1814

Acknowledgments

In addition to those named above:

   Phillip Hanvy, Senior Program Analyst

   Frank Salamone, Auditor

   Melinda Tabicas, Auditor

   David York, Program Analyst

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-01-06-26131
                           DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                         Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure program
objectives are achieved effectively and efficiently. Financial audits assess whether SSA’s
financial statements fairly present SSA’s financial position, results of operations, and cash flow.
Performance audits review the economy, efficiency, and effectiveness of SSA’s programs and
operations. OA also conducts short-term management and program evaluations and projects on
issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
